                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

Case Number: A-01110041                                                                Page 1 of 2



    We received an allegation that the subjects' NSF proposal (subject 1, PI; and subjects 2 and 3,
    co-PIS)' contained over two paragraphs of text plagiarized from a published paper (the source
    document).* Our initial review confirmed that the text appeared to have been copied into the
    NSF proposal's background section from the source document without appropriate citation.

    We wrote to each subject requesting an explanation. Subject 1 took full responsibility for the
    plagiarism, explaining that he, not subjects 2 and 3, prepared the section of the NSF proposal
    containing the copied text. He intended to cite the text appropriately in the NSF proposal, but
    failed to do so in his rush to complete it. Subject 1 emphasized, however, in his own defense,
    that he provided the name of the source document's first author in the NSF proposal as a
    suggested proposal reviewer, an action he would not have taken if he intentionally plagiarized
    the text. Subjects 2 and 3 stated they were each unaware of the copied text until receiving our
    letter. We determined that the allegation had substance and referred the investigation to
    subject 1's University.

    The report from the University's investigation committee (the Committee) stated that subject 1
    was solely responsible for the copied text. The Committee determined that subject 1 acted
    carelessly, recklessly, and knowingly when he copied the text. It also determined that subject 1
    self-plagiarized when he copied text from the background section of an earlier publication that he
    authored into a more recent publication he authored without appropriately citing the origin of the
    text. The Committee determined that subject 1's copying of text in the NSF proposal and his
    self-plagiarism represented a pattern of behavior. The Committee concluded that the subject
    committed misconduct in science according to the University's policy.

    The University adjudicator accepted the Committee's assessment that subject 1 plagiarized text
    from the source document into his NSF proposal, but disagreed that subject 1's self-plagiarism
    constituted evidence of a pattern of behavior. The adjudicator concluded subject 1 committed
    misconduct in science. The University sanctioned subject 1, sending him a letter of reprimand
    and requiring him to certify to University officials for 3 years from the date of the reprimand
    letter that any proposal sent to an external funding agency contained no plagiarized material.
                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A-01110041                                                                                  Page 2 of 2



     The University adjudicator stated that there was no preponderance of evidence either way in this
     case, concluding, nonetheless, the fact remained that subject 1 plagiarized text from the source
     document. Further, neither the Committee nor the adjudicator determined if subject 1's copying
     was a serious deviation from accepted practice for subject 1's community of scientists. Finally,
     the Committee did not specify a level of intent, but rather a range of levels for subject 1's action
     (careless to knowing).

     A finding of misconduct3by NSF requires (1) There be a significant departure from accepted
     practices of the relevant research community; and (2) The research misconduct be committed
     intentionally, or knowingly, or recklessly; and (3) The allegation be proven by a preponderance
     of evidence.

     The University clarified that the preponderance of the evidence supported its finding of
     misconduct in science. The University explained that overall it considered the intent as knowing.
     Finally, the University stated that it considered subject 1's act to be a deviation from accepted
     practice, not a serious deviation. Because the University did not find that subject 1's behavior
     was a serious deviation from accepted practice within his community, the conduct did not meet
     the federal definition of misconduct in science. We agree with the University's finding, given
     the amount of copied text, which consisted of background information, in conjunction with other
     extenuating circumstances, such as subject 1's suggestion in the proposal that the author of the
     source document be a merit reviewer for the NSF proposal. We wrote to subject 1 informing him
     that we had closed this case without a finding of misconduct in science, warning him to be more
     vigilant in the future when he prepares IVSF proposals. We wrote to subjects 2 and 3, who had
     been found to have no culpability, and informed them that the case was closed.

     This case is closed and no further action will be taken.




       Because the alleged conduct occurred before April 17,2002, NSF will use the following definition of misconduct
     in science: "Fabrication, falsification, plagiarism, or other serious deviation from accepted practices in proposing,
     carrying out, or reporting results from activities funded by NSF."
